                          Railroad Retirement Board-Office of Inspector General
                                   Semiannual Report to the Congress
                                     October 1, 2000 - March 31, 2001




                                          TABLE OF CONTENTS


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                        1

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               2

SIGNIFICANT ISSUES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                     4

OFFICE OF AUDIT

Mission . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    8
Report Summaries . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             9
Audits: Management Decisions and Implementation . . . . . . . . . . . . . . . .                                       13

OFFICE OF INVESTIGATIONS

Mission . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   14
Accomplishments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           15
Investigative Cases . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           16
Representative Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               17
Affirmative Civil Enforcement Program . . . . . . . . . . . . . . . . . . . . . . . . . . . .                         25
Hotline Calls . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     26

LEGISLATIVE AND REGULATORY REVIEW . . . . . . . . . . . . . . . . . . . .                                             27

APPENDICES

(A) OIG Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              28
(B) OIG Reports Issued Involving Questioned Costs and
    Recommendations That Funds Be Put To Better Use . . . . . . . . . . . . .                                         29
(C) Report on Receivables, Waivers, and Recoveries . . . . . . . . . . . . . . .                                      31
(D) RRB Management Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                        32
(E) Cross References to Inspector General Act . . . . . . . . . . . . . . . . . . . . .                               38
                 Railroad Retirement Board-Office of Inspector General
                          Semiannual Report to the Congress
                            October 1, 2000 - March 31, 2001




                         EXECUTIVE SUMMARY

This Semiannual Report describes the activities of the Office of Inspector General
(OIG) at the Railroad Retirement Board (RRB) during the six month period ending
March 31, 2001.

The OIG issued its report on the audit of the RRB’s financial statements and
related internal controls for fiscal year (FY) 2000. The RRB received its first
unqualified opinion since audits of the financial statements were initiated in FY
1993. The OIG also continued monitoring two critical RRB areas: the activities of
the agency’s Investment Committee and the proposed comprehensive
amendments to the Railroad Retirement Act.

The Office of Audit conducted an audit of the agency’s FY 1999 Performance
Report to ensure compliance with the Government Performance and Results Act
of 1993. Auditors also provided their findings in another audit concerning the
RRB’s document imaging initiatives in the unemployment and sickness insurance
programs. The report cited weaknesses in current procedures and recommended
necessary corrective actions. Management plans completion of corrective action
for all recommendations in FY 2001.

The Office of Investigations achieved 21 convictions, 16 indictments and
information, and $1.2 million in recoveries, restitutions, fines, civil damages and
penalties, and potential economic loss prevented.




                                          -1-
                Railroad Retirement Board-Office of Inspector General
                         Semiannual Report to the Congress
                           October 1, 2000 - March 31, 2001




                              INTRODUCTION

Office of Inspector General

The Office of Inspector General (OIG) has the responsibility for promoting
economy, efficiency and effectiveness in the programs of the Railroad Retirement
Board. The office is also charged with the detection, prevention and elimination of
fraud, waste and abuse in agency operations. To accomplish its mission, the OIG
conducts audits, management reviews, and investigations.

The Railroad Retirement Solvency Act of 1983 established the Office of Inspector
General at the Railroad Retirement Board by naming the agency as “one of such
establishments” identified under Section 2 of the Inspector General Act of 1978.
The Inspector General Act Amendments of 1988 added the RRB to the list of
agencies covered by the Inspector General Act.

In fiscal year 2000, the OIG had 58 employees and an operational budget of
$5,380,000. The organization has three major components: the immediate office
of the Inspector General, the Office of Audit, and the Office of Investigations. The
office conducts its operations from two locations: the headquarters of the Railroad
Retirement Board in Chicago, Illinois, and an investigative field office in
Philadelphia, Pennsylvania.




                                         -2-
                Railroad Retirement Board-Office of Inspector General
                         Semiannual Report to the Congress
                           October 1, 2000 - March 31, 2001




Railroad Retirement Board

The Railroad Retirement Board (RRB) is an independent agency in the Executive
Branch of the Federal government that is headed by a three member Board
appointed by the President of the United States, with the advice and consent of
the Senate. One member is appointed upon the recommendation of railroad
employers, one is appointed upon the recommendation of railroad labor
organizations, and the third, who is the Chair, is appointed to represent the public
interest.

The agency administers comprehensive retirement-survivor and unemployment-
sickness insurance benefit programs for the nation's railroad workers and their
families, under the Railroad Retirement and Railroad Unemployment Insurance
Acts. The RRB also has administrative responsibilities under the Social Security
Act for certain benefit payments and Medicare coverage for railroad workers.

During fiscal year (FY) 2000, the RRB paid $8.3 billion in retirement and survivor
benefits to approximately 724,000 beneficiaries, while net unemployment and
sickness insurance benefits of $79 million were paid to almost 35,000 claimants.
The RRB also administers its own Medicare Part B program through a single
carrier, Palmetto GBA. The carrier made payments totaling $695 million to
provide medical insurance benefits for 650,000 beneficiaries.




                                         -3-
                Railroad Retirement Board-Office of Inspector General
                         Semiannual Report to the Congress
                           October 1, 2000 - March 31, 2001




SIGNIFICANT ISSUES



                    FINANCIAL STATEMENT AUDIT

During this semiannual reporting period, the Office of Inspector General (OIG)
issued its audit report of the RRB’s financial statements and related internal
controls for fiscal year (FY) 2000. The RRB received its first unqualified (clean)
opinion since Arthur Andersen was engaged to audit the financial statements for
FY 1993.

Every previous audit has resulted in a disclaimer of opinion as a result of the
uncertainty of estimates used to record and report on the financial interchange.
The financial interchange is an annual funds transfer among the RRB, the Social
Security Administration and the Health Care Financing Administration. Auditors
had stated that, because the estimates are prepared six months prior to the actual
settlement date, the extensive estimation had previously resulted in significant
differences between the amounts accrued and the actual settlement. The auditors
were unable to determine what adjustments, if any, might be necessary.

The auditors have now concluded that (1) it is not possible to obtain more
accurate estimates of the financial interchange receivables and payables; (2)
accrual accounting treatment is mandated; and (3) unless the OIG accepts a
higher degree of risk, it will never be possible to express an opinion on the RRB’s
financial statements. Therefore, auditors concluded that it is appropriate for the
OIG to accept a higher level of audit risk, and that the




                                         -4-
                 Railroad Retirement Board-Office of Inspector General
                          Semiannual Report to the Congress
                            October 1, 2000 - March 31, 2001




accuracy of financial interchange accrual accounting estimates will not, by itself,
present a cause for disclaimer.

Material Weakness: Overall Control Environment

The RRB’s overall control environment has been cited as a material weakness
since FY 1993. In this most recent audit, the OIG states that the RRB’ present
administrative structure is the primary cause of this internal control weakness.
Again, auditors found that the RRB’s internal control environment is focused on
control objectives and techniques designed to meet the organizational
responsibilities of each individual operating unit, rather than the overall objectives
of the RRB. As a result, the agency has experienced difficulties in resolving
financial accounting and reporting issues that require cross-organizational
cooperation. In addition, the Board Members have significant involvement in the
operational affairs of the agency.

Agency management believes that previous reorganizations and the increased
role of the RRB’s Executive Committee have eliminated this material weakness.
The agency did not include this finding in its Federal Managers’ Financial Integrity
Act reports for FYs 1997, 1998, 1999 or 2000. However, the OIG believes the
overall control environment continues to be a material weakness. Although the
RRB has implemented changes to the agency’s organizational structure, the
conditions that led to the original finding continue to exist and have an adverse
effect on the agency’s ability to meet its internal control objectives related to
financial statement reporting.

Since the RRB no longer recognizes this material weakness, the OIG made no
further formal recommendations for corrective action concerning the overall control
environment in its present audit.

                                          -5-
                Railroad Retirement Board-Office of Inspector General
                         Semiannual Report to the Congress
                           October 1, 2000 - March 31, 2001




                        INVESTMENT ACTIVITIES

The OIG continues to monitor and comment upon the activities of the RRB’s
Investment Committee. During this semiannual period, the interest environment
has resulted in minimal investment activity with short-term investments in Treasury
bills with maturities of less than two months. Other than the sale of a bill prior to
maturity, the Investment Committee has approved only one marketable security
sale since June 1999. The OIG is concerned that the lower interest rates result in
less income to the trust funds. The positive aspect is that the decline in interest
rates has translated into fewer transactions authorized by the Investment
Committee and an increase in the market value of the investments.



                          PENDING LEGISLATION

A coalition of railroad labor and management has proposed comprehensive
amendments to the Railroad Retirement Act that resulted in proposed legislation
during the previous session of Congress. The proposal was not enacted, but
similar legislation has recently been introduced in both the House of
Representatives and in the Senate.

The benefit measures included in the proposed legislation provide for the
acceleration of vesting, improvements in widow(er) annuities, elimination of a
maximum annuity provision and reducing the age requirement for full retirement
after 30 years of service. In addition, the proposed legislation eliminates the
supplemental annuity tax, reduces the Tier II payroll tax,



                                         -6-
                Railroad Retirement Board-Office of Inspector General
                         Semiannual Report to the Congress
                           October 1, 2000 - March 31, 2001




establishes a method for determining the future Tier II tax rate and transfers the
RRB’s investment authority to an independent board of trustees.

The OIG initiated monitoring activity of this evolving legislation approximately one
year ago and has expressed specific concerns to each Board Member. In
addition, the OIG has initiated a review of the RRB’s contingency planning effort to
determine the agency’s ability to implement the provisions of the proposed
legislation if it were passed in the current form.




                                         -7-
                Railroad Retirement Board-Office of Inspector General
                         Semiannual Report to the Congress
                           October 1, 2000 - March 31, 2001




                            OFFICE OF AUDIT

The Office of Audit (OA) conducts reviews to promote economy, efficiency, and
effectiveness in the administration of RRB programs, and detect and prevent
waste, fraud, and abuse in such programs. Through the Inspector General, the
office ensures that the Board Members and the U.S. Congress are informed of
current and potential problems in the RRB’s programs and operations, and
advised of recommended improvements, as well as the status of corrective
actions. OA examines programmatic, financial, and administrative aspects of
RRB operations.


During this reporting period, OA issued its audit of the RRB’s fiscal year 2000
financial statements and continued major monitoring projects concerning the
agency’s implementation of the Government Performance and Results Act, the
expansion of document imaging initiatives, pending legislative changes to the
Railroad Retirement Act, and activities of the RRB’s Investment Committee.




                                         -8-
                Railroad Retirement Board-Office of Inspector General
                         Semiannual Report to the Congress
                           October 1, 2000 - March 31, 2001




Review of Document Imaging - Railroad Unemployment Insurance Act
Programs


This audit report presents the results of the ongoing OIG monitoring of the
Railroad Retirement Board’s (RRB) document imaging initiative, and focuses on
imaging initiatives in the RRB’s unemployment and sickness insurance programs.
The first monitoring report was issued on September 23, 1999 and addressed the
cost benefit analysis for the Railroad Retirement Act imaging initiative and the
planning stage of the Railroad Unemployment Insurance Act (RUIA) replacement
initiative. Auditors recommended that management review and approve a
detailed implementation plan before approving additional funding for the RRA
imaging project.


In June 1999, the agency implemented a document imaging system to process
sickness insurance applications and to retain copies of tax statements. The
system will permit faster adjudication of claims and improved control over work
items. In March 2000, the RRB completed expansion of the RUIA imaging system
to include correspondence and to allow limited access to other operational units.
Work is continuing to make the system available to agency field offices.


Auditors conducted this review to determine if (1) the agency is in compliance
with Federal regulations on document retention; (2) controls are in place to ensure
reliability of the imaged documents; and (3) controls are in place to ensure
security over access to the documents. Although the OIG did not find any
violations of Federal regulations, the review indicated that several



                                         -9-
               Railroad Retirement Board-Office of Inspector General
                        Semiannual Report to the Congress
                          October 1, 2000 - March 31, 2001




weaknesses must be addressed. Inadequate procedures currently create the
potential for the illegal destruction of paper documents; the agency has not
finalized procedures for the storage and destruction of paper input documents.
Auditors also identified documents that were not on the imaging systems, had
missing and/or unreadable pages, and had incorrect index information.
Improvements are also needed in the document imaging system’s access
controls, management reports, and backup and recovery procedures. Program
management agreed with all the report recommendations and has planned
completion of all corrective actions by August 31, 2001.


The OIG will continue to closely monitor the development and implementation of
the RRB’s document imaging systems because of the significant impact on RRB
operations. Ongoing OIG monitoring of this major initiative will provide the
oversight necessary to ensure the RRB is in compliance with applicable laws and
regulations.



Review of the Railroad Retirement Board’s Fiscal Year 1999
Performance Report


This audit examined the Railroad Retirement Board’s performance report for
fiscal year 1999 to ensure compliance with the Government Performance and
Results Act (GPRA) of 1993. In fiscal year 1998, the OIG conducted a review on
the agency’s implementation of the GPRA and recommended that changes be
made in some performance goals and indicators. The OIG urged the RRB to
automate the process to produce performance indicators, develop target levels

                                       -10-
                Railroad Retirement Board-Office of Inspector General
                         Semiannual Report to the Congress
                           October 1, 2000 - March 31, 2001




for each performance indicator or explain why there is no target level, and ensure
all cost information came from the agency’s cost accounting system or was
reconcilable to that system’s data.


The RRB’s Executive Committee did not agree with the auditors’
recommendations, and indicated that each performance indicator reflected a
specific management commitment to achieve specific task for which managers
could be held accountable. However, the current review found that the RRB
subsequently developed target levels for 10 of 14 performance indicators that
previously did not have targets. Agency management explained that target levels
were not set for two indicators because of a lack of funding and a lack of
resources. Targets for the remaining two indicators were listed as deferred or
none.


The OIG reviewed the reportable performance indicators in the RRB’s 1999
performance report, and found the report generally met the basic requirements of
GPRA and OMB Circular A-11, Sections 230-233.


In its 1999 performance report, the agency provided an explanation for all non-
achievement of performance goals and the agency’s plans and schedules for
achieving goals that were not met. The report also included fiscal year 1998
performance data as well as a description of recent restructuring activities and
significant automation initiatives at the agency.


Auditors determined the RRB’s 1999 performance report complied with GPRA
guidelines with only minor discrepancies. The agency failed to include a



                                         -11-
                Railroad Retirement Board-Office of Inspector General
                         Semiannual Report to the Congress
                           October 1, 2000 - March 31, 2001




summary of findings presented in the RRB program evaluation reports, such as
the Federal Managers’ Financial Integrity Act Reports and the Annual
Financial Statement Audit, prepared during FY 1999. The latter cited the agency
for a material weakness related to the RRB’s overall control
environment. Management had concluded that sufficient corrective action had
been taken to address this issue and the control environment was no longer a
material weakness. The agency and the OIG disagreed over this issue, and the
financial statement audit opinion concluded the material weakness continued to
exist. Auditors recommended that the agency include program evaluation
activities in its annual performance reports. Management concurred and included
a brief discussion of the situation regarding the RRB’s overall control environment
in the agency’s FY 2000 performance report.


The OIG will continue to monitor the RRB’s efforts to implement GPRA and to
provide management with recommendations for improving the reporting of
performance information.




                                        -12-
                Railroad Retirement Board-Office of Inspector General
                         Semiannual Report to the Congress
                           October 1, 2000 - March 31, 2001




AUDITS: MANAGEMENT DECISIONS AND IMPLEMENTATION


Through a Memorandum of Understanding, the Director of Administration
transferred the responsibility for managing the open audit follow-up system to the
Office of Inspector General. This system tracks the status of corrective actions for
all audit recommendations. Procedures are in place to ensure that the agency is
in compliance with all applicable regulations. Office of Management and Budget
Circular No. A-50 (Revised) and the Inspector General Act Amendments of 1988
require the reporting of management decisions and corrective actions for all audit
recommendations.

Management Decisions
Recommendations requiring a management decision on October 1, 2000                   0
New recommendations issued during this period
  pending a management decision                                                      0
Previous recommendations for which a management
  decision was made                                                                  0
Number of recommendations pending a management decision
  on March 31, 2001                                                                  0

Corrective Actions
Prior recommendations requiring action on October 1, 2000                        92
New recommendations issued during this six month reporting period                22
Recommendations for which corrective actions
  were completed from October 1, 2000 - March 31, 2001                          - 37
Recommendations pending final action on March 31, 2001                            77



                                        -13-
                Railroad Retirement Board-Office of Inspector General
                         Semiannual Report to the Congress
                           October 1, 2000 - March 31, 2001




                    OFFICE OF INVESTIGATIONS


The Office of Investigations (OI) focuses on RRB benefit program fraud. OI's
primary objective is to identify, investigate, and refer for prosecution and monetary
recovery action, cases of waste, fraud and abuse in RRB programs. Through its
investigations, OI also seeks to prevent and deter program fraud. In order to
maximize the effect of its resources, OI continues to pursue cooperative
investigative activities and coordination with other Inspectors General and law
enforcement agencies, which include the Social Security Administration-Office of
Inspector General (SSA-OIG), the Federal Bureau of Investigation (FBI), the U.S.
Secret Service, the Internal Revenue Service, and the Postal Inspection Service.




                                        -14-
               Railroad Retirement Board-Office of Inspector General
                        Semiannual Report to the Congress
                          October 1, 2000 - March 31, 2001




INVESTIGATIVE ACCOMPLISHMENTS                                          10//01/00 -
                                                        FY 2000        03/31/01
Convictions                                                     66               21

Civil Judgements                                                45               24

Indictments/Informations                                        35               16

Investigative Recoveries                               $ 1,054,972     $   127,658

Restitutions and Fines                                 $ 1,575,074     $   309,620

Civil Damages and Penalties                            $   898,788     $   305,878

Potential Economic Loss Prevented (PELP)               $   426,551     $   458,432

Community Service Hours                                      1094               150

Disciplinary/Administrative Action                                1                  0

Civil Complaints                                                36               12
Criminal Complaints                                              8                3

Arrests                                                           2                  3

Subpoena Service:
 Inspector General                                              17               12
 Federal Grand Jury                                             68                6
 Trial                                                          30                0

Program Fraud Civil Remedies Act Referrals                        6                  5

U.S. Attorney Referrals                                        397              201




                                       -15-
                  Railroad Retirement Board-Office of Inspector General
                           Semiannual Report to the Congress
                             October 1, 2000 - March 31, 2001




INVESTIGATIVE CASES

During this semiannual period, OI opened 116 investigations and closed 201
cases. The major sources of case referrals are illustrated below.
     RRB Programs - 69%

                                                        Hotline/Informants - 10%



                                                               OIG Developed - 5%


                                                             Federal/State Agencies - 2%




                                                        RRB Computer Matches - 14%




OI's current caseload totals 548 criminal matters, representing over $13.4 million
in fraud against the RRB.

       Unemployment - 203 cases
          $795,000                                          Disability - 100 cases
                                                                $1,050,000




                                                               Railroad Employers -16 cases
                                                                        $4,153,000
                                                               Spouse/Dependent - 16 cases
                                                                       $339,000
                                                             Representative Payee - 19 cases
                                                                   $237,000
       Retirement - 149 cases
                                                       Sickness - 29 cases
            $5,481,000
                                                           $123,000
                                                  Other - 16 cases
                                                     $1,050,000


                                           -16-
                Railroad Retirement Board-Office of Inspector General
                         Semiannual Report to the Congress
                           October 1, 2000 - March 31, 2001




REPRESENTATIVE INVESTIGATIONS

                        Railroad Employer Fraud

OI investigates cases involving false reporting by railroad employers. Such cases
are often worked jointly with the Internal Revenue Service under the direction of
the Department of Justice Tax Division attorneys. These cases can involve
complex fraud schemes which result from collusion among railroad employers,
retired railroad workers and third party employers. These schemes have a
substantial impact on the agency’s trust funds because the retirees are receiving
benefits to which they are not entitled and, at the same time, the employers are
not submitting contributions to the trust funds as required.

By law, railroad employers are required to advise the agency of changes in their
operations, organization or ownership that would affect their status for coverage
under the Railroad Retirement and Railroad Unemployment Insurance Acts. The
OIG has found that, due to a minimal policing of employers by the agency, it is
very easy for employers to assign employees to affiliated business entities and
report them as being covered under the Federal Insurance Contributions Act.
Some employers have transferred employees to temporary employment agencies
or payroll servicing companies to carry out the fraud.

OI continues to review the results of audits conducted by the agency’s Audit and
Compliance Division to identify fraud matters related to railroad
employers. OI currently has 16 open cases involving allegations related to
railroad employers.




                                        -17-
             Railroad Retirement Board-Office of Inspector General
                      Semiannual Report to the Congress
                        October 1, 2000 - March 31, 2001




•   The OIG initiated an investigation of a railroad employer after the RRB had
    received BA-3 reports, Annual Reports of Creditable Compensation, for
    calendar years 1985 through 1998 indicating the company had no
    employees.

    Special agents determined that the employer operated a shortline railroad
    with part-time employees since 1985, and had failed to report
    approximately $108,780 of creditable compensation to the RRB. In
    addition, the company had failed to withhold and pay approximately
    $23,858 in tier II taxes and supplemental taxes. However, Social Security
    taxes on the compensation had been paid from 1985 through 1998.

    On December 20, 2000, the employer signed a settlement agreement and
    release, paid the outstanding $23,858 to the Internal Revenue Service, and
    filed a Report of Creditable Compensation Adjustments Report with the
    RRB.




                                     -18-
               Railroad Retirement Board-Office of Inspector General
                        Semiannual Report to the Congress
                          October 1, 2000 - March 31, 2001




                        Retirement Benefit Cases

      RRB retirement fraud typically involves the theft and fraudulent cashing of
      U.S. Treasury checks, or the illicit conversion of U.S. Treasury electronic
      fund transfers, by someone other than the authorized RRB annuitant. During
      this reporting period, OI obtained three convictions and one civil judgement
      for retirement fraud. Defendants received 5 years probation, six months
      house arrest, and were ordered to pay $43,283 in restitution, $50 in fines
      and $7,527 in damages. The RRB will recover $35,797 in overpayments
      as a result of OIG investigations.

Examples of recent retirement cases follow.

•        The RRB’s Chicago District Office received information that an RRB
         annuitant had died in 1990, but notification of the death had never been
         provided to the agency. OI special agents opened an investigation that
         identified the annuitant’s daughter, and his joint account holder, had
         continued to use funds paid into his bank account. From June 1990 to
         January 1994, she had stolen government funds totaling $42,283.

         The subject was convicted for violation of Title 26, Section, 7206,
         Declaration Under Penalty and Perjury. She was ordered to make full
         restitution to the RRB, sentenced to five months probation, and will serve
         six months home confinement.




                                       -19-
          Railroad Retirement Board-Office of Inspector General
                   Semiannual Report to the Congress
                     October 1, 2000 - March 31, 2001




•   OI opened an investigation after receiving a referral from the agency’s
    Debt Recovery Division in March 2000. The investigation revealed that
    an individual had filed an application with the RRB in February 1994 to
    begin his retirement benefits. On his application, the subject indicated
    that he had ended his previous self-employment and would not earn in
    excess of the annual exempt amount of $8,040 in 1994.

    The RRB subsequently received information that the subject had, in fact,
    earned $10,201 in 1994. In addition, his earnings for 1995 through
    1998 also exceeded the exempt amounts. As a result, the subject
    fraudulently received $26,626 in retirement benefits.

    On March 7, 2001, the subject entered into a Pretrial Diversion
    Agreement for making false statements to the RRB in violation of Title
    18, USC 1001. He agreed to make full restitution of $26,626 to the
    RRB.

•   OI agents also identified an individual who collected RRB
    spouse/dependent benefits for her minor child despite the fact the child
    resided with his father. The subject did not have legal custody of the
    child, failed to report this fact to the RRB, and fraudulently collected
    approximately $8,226.

    On January 4, 2001, the subject was placed on one year probation and
    ordered to make restitution in the amount of $6,874.




                                  -20-
                Railroad Retirement Board-Office of Inspector General
                         Semiannual Report to the Congress
                           October 1, 2000 - March 31, 2001




          Unemployment and Sickness Insurance Cases

Unemployment Insurance (UI) and Sickness Insurance (SI) benefit fraud involves
individuals claiming and receiving UI or SI benefits while working and receiving
wages from an employer, in violation of Federal law. The primary source of UI/SI
fraud cases remains state computer matching programs that compare RRB
beneficiaries with individuals for whom wages have been reported.

During this reporting period, OI obtained 13 convictions and 21 civil judgements
for UI and SI fraud. Defendants in these cases received, in the aggregate, 25
years and 11 months probation, one year suspended sentence, and 22 months
house arrest. They were ordered to pay $47,640 in restitution, $2,325 in fines,
$101,946 in damages, $165,896 in civil penalties and to perform 150 hours of
community service. The RRB will also be able to recover an additional $40,764
as a result of OI investigations.

Examples of typical cases involving individuals fraudulently receiving
unemployment or sickness insurance benefits follow.

•        OI opened an investigation of an individual based upon a referral from
         the National Railroad Passenger Corporation (Amtrak). The initial
         allegation indicated that the subject collected sickness insurance
         benefits on the same days that he worked for a private employer.
         Subsequent investigation confirmed that the subject was employed as a
         window installer and submitted 28 false claims to the RRB.




                                        -21-
          Railroad Retirement Board-Office of Inspector General
                   Semiannual Report to the Congress
                     October 1, 2000 - March 31, 2001




    A Settlement Agreement in a Civil Case was entered against the
    subject, and he was ordered to make full restitution to the agency.

•   A state computer matching program with the State of Texas identified
    an individual who worked on the same days that he claimed
    unemployment benefits. An overpayment of $7,827 was calculated.
    The Civil Division of U.S. Attorney’s Office, Southern District of Texas
    filed a default judgement against the subject. The U.S. District Court
    ordered him to pay $7,827 in actual damages and a $115,654 penalty
    due to 20 false claims made by the subject.

•   Another subject who claimed unemployment benefits while employed
    was identified with a state wage match with the State of Texas. This
    subject fraudulently collected $4,056 in unemployment insurance
    benefits. The U.S. District Court ordered him to pay $4,056 in actual
    damages and a $20,280 penalty due to 17 false claims made by the
    subject.

•   OI opened this case based upon a referral from the RRB’s Sickness
    and Unemployment Benefits Division which indicated that a claimant
    collected unemployment benefits while working for a private employer.
    Investigation found that the subject had collected benefits from August
    1996 through June 1997 while employed. He failed to reveal this
    employment to the RRB and submitted 23 false claims to the RRB,
    resulting in the theft of $7,950 in benefits. On January 8, 2001, a
    Judgement in a Criminal Case was entered against the subject and he
    subsequently sentenced to 36 months probation and ordered to pay
    restitution of $7,950.

                                  -22-
                Railroad Retirement Board-Office of Inspector General
                         Semiannual Report to the Congress
                           October 1, 2000 - March 31, 2001




                               Disability Cases

The OIG also conducts fraud investigations relating to the RRB's disability
program, which typically involves larger financial amounts and more sophisticated
schemes. During this reporting period, OI obtained three convictions and one civil
judgement for disability fraud. Defendants in these cases were sentenced to11
years probation, and six months house arrest. They were also ordered to pay
$71,415 in restitution, $3,091 in damages, $25 in fines, and $3,560 in civil
penalties. An additional $39,894 in overpayments will be recovered as a result of
OI investigations concerning disability fraud cases.

Examples of disability cases follow.

•      Based on a referral from the RRB’s Disability Benefits Section, OI initiated
       an investigation of a disability annuitant. The referral indicated that the
       annuitant was earning in excess of his disability related restrictions. OI
       special agents confirmed that the individual had received overpayments
       totaling $29,815, and had made multiple false statements to the RRB. He
       had informed RRB district office personnel that the wages in question
       belonged to his son.

.      The annuitant pleaded guilty in U.S. District Court to one count in violation
       of 18 U.S.C. Section 1001, False Statement. He was sentenced to six
       months home confinement, three years probation and ordered to make
       restitution of $29,815.




                                        -23-
             Railroad Retirement Board-Office of Inspector General
                      Semiannual Report to the Congress
                        October 1, 2000 - March 31, 2001




•   OI initiated another investigation of a disability annuitant based on a
    referred from the agency’s Retirement Benefits Division. The initial
    allegations indicated that the individual failed to report his work and
    earnings while receiving RRB disability benefits.

    Employed as a signalman, the subject was injured in February 1982 and
    filed for a disability insurance benefit. In January 1997, he became
    employed at a rug company and failed to notify the RRB of his
    employment. As a result, he fraudulently received $25,149 in disability
    benefits. He was charged with making false claims to the RRB, and was
    sentenced to three years probation, ordered to perform 150 hours of
    community service, and directed to pay restitution of $25,149 to the
    agency.
.




                                      -24-
                Railroad Retirement Board-Office of Inspector General
                         Semiannual Report to the Congress
                           October 1, 2000 - March 31, 2001




AFFIRMATIVE CIVIL ENFORCEMENT (ACE) PROGRAM

OI continues to pursue prosecution of cases under the Department of Justice's
Affirmative Civil Enforcement Program. This program involves "fast track" civil
prosecution of cases under the provisions of the Title 31, U. S. Code, Sections
3729-3733, The Civil False Claims Act. This statute allows the government to
recover up to triple damages as well as $5,000 to $10,000 for each false claim
submitted.
.
During this reporting period, a total of 23 civil judgements under the ACE program
were entered by Federal district courts which will result in the return of $282,020
to the government when the funds are collected.

The Department of Justice is frequently obtaining double damages through these
civil false claims prosecutions. The judgements obtained in these cases also
provide the agency with an efficient and effective basis to pursue their collection
activities.

The ACE Program continues to provide an efficient means to address fraud
against agency programs, particularly where the fraud losses are below the
financial guidelines for criminal prosecution. It also is an effective way to return
fraud losses to the RRB's trust funds and create a deterrent against future fraud.




                                         -25-
                   Railroad Retirement Board-Office of Inspector General
                            Semiannual Report to the Congress
                              October 1, 2000 - March 31, 2001




                                     HOTLINE CALLS



The Office of Inspector General established its Hotline to receive complaints
concerning suspected fraud, waste and abuse in RRB programs and operations.
The Hotline provides an open line of communication for individuals who desire to
report suspected criminal activity, conflict of interest, mismanagement, and waste
of RRB funds.


                                                                           10/01/00 -
                                                                           03/31/01


 Total Contacts: (Telephone Calls and Letters)                                  856


 Referred to: RRB-OIG, Office of Investigations                                  74
                           Office of Audit                                        1


 RRB Bureaus/Offices                                                            579


 Other Federal Agencies                                                          19


 RRB Medicare Carrier/Durable Medical Equipment
 Regional Carriers                                                                8


 Other (misdirected calls, follow up calls to agents , etc.)                    175




                                                -26-
                Railroad Retirement Board-Office of Inspector General
                         Semiannual Report to the Congress
                           October 1, 2000 - March 31, 2001




LEGISLATIVE & REGULATORY REVIEW

The Inspector General Act requires the Inspector General to review existing and
proposed legislation and regulations relating to the programs and operations of
the agency and to make recommendations in the semiannual report concerning
the impact on the economy and efficiency of the agency’s administration of its
programs and on the prevention of fraud and abuse.

During this reporting period, the agency issued a regulation pertaining to the
finality of decisions under the Railroad Unemployment Insurance Act. Although
the rule lists several conditions for reopening decisions, the rule also provides that
the three member Board is not required to reopen decisions that fulfill the
conditions set forth in the regulation. The Board is also allowed to reopen any
decision that does not meet the regulation’s requirements. In its last semiannual
report, the OIG noted that this rule is problematic because it does not provide
adequate administrative finality for agency decisions and does not increase the
economy and efficiency of administration of the agency’s programs. No changes
were made to this regulation before it was finalized.




                                         -27-
               Railroad Retirement Board-Office of Inspector General
                        Semiannual Report to the Congress
                          October 1, 2000 - March 31, 2001




APPENDIX A - OIG REPORTS ISSUED



P Review of Document Imaging, Report No. 01-01, November 17, 2000

P Review of the Railroad Retirement Board’s Fiscal Year 1999
  Performance Report, Report No. 01-02, February 5, 2001

P Fiscal Year 2000 Financial Statement Audit, Report No. 01-03,
  February 23, 2001




                                       -28-
                      Railroad Retirement Board-Office of Inspector General
                               Semiannual Report to the Congress
                                 October 1, 2000 - March 31, 2001




APPENDIX B

                    INSPECTOR GENERAL ISSUED REPORTS
                          WITH QUESTIONED COSTS
                                                                 Questioned   Unsupported
A. For which no management                       Number          __ Costs       Costs
decision had been made by
by October 1, 2000
                                                     0                 0           0
B. Which were issued from
October 1, 2000 through
March 31, 2001
                                                     0                 0           0
Subtotals (A + B)
                                                     0                 0           0
C. For which a management
decision was made from
October 1, 2000 through
March 31, 2000
                                                     0
(i) dollar value of
disallowed costs
                                                                       0           0
(ii) dollar value of
costs not disallowed
                                                                       0           0
D. For which no management
decision had been made by
March 31, 2001
                                                     0                             0
Reports for which no
management decision was
made within six months
of issuance
                                                     0                             0


                                              -29-
                     Railroad Retirement Board-Office of Inspector General
                              Semiannual Report to the Congress
                                October 1, 2000 - March 31, 2001




                    INSPECTOR GENERAL ISSUED REPORTS
                       WITH RECOMMENDATIONS THAT
                        FUNDS BE PUT TO BETTER USE

                                          Number                        Dollar Value
A. For which no management
decision had been made by
October 1, 2000                                0


B. Which were issued from
October 1, 2000 through
March 31, 2001                                 0


Subtotals (A + B)                              0


C. For which a management
decision was made from
October 1, 2000 through
March 31, 2001                                 0


(i) dollar value of
recommendations that were
agreed to by management                                                          0


(ii) dollar value of
recommendations that were not
agreed to by management                                                          0


D. For which no management
decision had been made by
March 31, 2001                                 0


Reports for which no
management decision was made
within six months of issuance                  0


                                             -30-
                    Railroad Retirement Board-Office of Inspector General
                             Semiannual Report to the Congress
                               October 1, 2000 - March 31, 2001




APPENDIX C - REPORT ON RECEIVABLES, WAIVERS, AND
RECOVERIES

The FY 1999 appropriations language for this office requires the reporting of
additional information concerning actual collections, offsets and funds put to better use
achieved as a result of Inspector General activities. Figures are to be provided for each
semiannual period and as a cumulative number.

Office of Audit


         Funds to be Put     Funds Agreed       Receivables                 Recoveries
Report    To Better Use     by Management      Established       Waivers      To Date


99-03    $     50,850       $    50,850        $ 50,850         $ 50,490                     $   360
99-14    $     83,000       $    83,000*          $ 34,423                        $ 30,584
99-16    $ 48,000,000       $ 48,000,000
99-17    $ 11,000,000       $ 11,000,000
00-16    $   235,000          $   235,000                                         $253,846**


* This figure includes monies owed to the agency and overpayments which must be refunded.
**This figure represents returned payments credited to debtor accounts.


Office of Investigations


Recoveries realized by the RRB resulting from court ordered restitution and civil damages


October 1, 1998 - March 31, 1999:              $ 344,465
April 1, 1999 - September 30, 1999:            $ 511,190
October 1, 1999 - March 31, 2000:              $ 495,402
April 1, 2000 - September 30, 2000             $ 542,732
October 1, 2000 - March 31, 2001               $ 457,015




                                                 -31-
                      Railroad Retirement Board-Office of Inspector General
                               Semiannual Report to the Congress
                                 October 1, 2000 - March 31, 2001




APPENDIX D - RRB MANAGEMENT REPORTS*

            MANAGEMENT REPORT ON FINAL ACTION
            ON AUDITS WITH DISALLOWED COSTS FOR
          THE SIX MONTH PERIOD ENDING MARCH 31, 2001
                                                           Number of              Disallowed
                                                          audit reports               costs

A. Audit reports, with management decisions,
on which final action had not been taken at the
beginning of the period.                                            0               $     0

B. Audit reports on which management
decisions were made during the period.                              0               $     0

C. Total audit reports pending final action
during the period. (A + B)                                          0               $     0

D. Audit reports on which final action was taken
during the period.

1. Recoveries
  (a) Collections and offsets                                       0               $     0
  (b) Property                                                      0               $     0
  (c) Other                                                         0               $     0

2. Write-offs                                                       0               $     0

3. Total of 1 and 2                                                 0               $     0

E. Audit reports needing final action at the end
of the period (C - D.3)                                             0               $     0




*The information contained in this section has been provided by RRB management.




                                                   -32-
                           Railroad Retirement Board-Office of Inspector General
                                    Semiannual Report to the Congress
                                      October 1, 2000 - March 31, 2001




              MANAGEMENT REPORT ON FINAL ACTION ON AUDITS
            WITH RECOMMENDATIONS TO PUT FUNDS TO BETTER USE
              FOR THE SIX MONTH PERIOD ENDING MARCH 31, 2001

                                                             Number of                 Funds to be put
                                                            audit reports               to better use

A. Audit reports, with management decisions,
on which final action had not been taken at the
beginning of the period.                                         4                       $ 60,060,046 *

B. Audit reports on which management
decisions were made during the period.                           0                          $           0

C. Total audit reports pending final action
during the period. (A + B)                                       4                       $ 60,060,046

D. Audit reports on which final action was taken
during the period.

 1. Value of recommendations
implemented (completed)                                          2                       $ 1,453,846**

 2. Value of recommendations that
management concluded should not or could not
be implemented (completed)                                          0                       $       0

     3. Total of 1 and 2                                        0                       $       0

E. Audit reports needing final action
at the end of the period (C - D.3)                              2                       $ 58,606,200




*Comprised of the following amounts: $48,000,000 from Audit Report 99-16, “Financial Interchange:
Status of Prior Recommendations for Change;” $10,606,200 from Audit Report 99-17, “Review of
Supplemental Annuities;” $1,200,000 from Audit Report 00-02, “Review of RRB and SSA Exchange of
Death Information;” and $253,846 from Audit Report 00-16, “Review of Internal Control Over Financial
Accounting for Debt Recoveries.”

**
 Audit Reports 00-02 and 00-16. The amount for the latter was previously reported as an estimate of
$235,000.


                                                   -33-
                       Railroad Retirement Board-Office of Inspector General
                                Semiannual Report to the Congress
                                  October 1, 2000 - March 31, 2001




         MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS
         OVER TWELVE MONTHS OLD WITH FINAL ACTION PENDING
                       AS OF MARCH 31, 2001
                                                        Funds to be
                                        Disallowed         put to       Reason action has not
Report                       Date         Costs          better use       been completed

Audit of the RRB's           07/15/94     None            None        Corrective action on the
FY1993 Financial                                                      remaining recommendation
Statements                                                            depends on continued
                                                                      development of an automated
                                                                      system for survivor benefits, with
                                                                      a target completion date in Fiscal
                                                                      Year 2001.
Review of Initial Claims     09/20/96     None            None
Processing (96-15)                                                    The agency has issued new
                                                                      procedures for crediting military
                                                                      service and is examining
                                                                      methods to solicit advance proofs
                                                                      for benefit eligibility.
Review of Quality            01/22/97     None            None
Assurance Activities                                                  The remaining recommendation
(97-06)                                                               will be addressed as the agency
                                                                      develops a long-term quality
                                                                      assurance plan over the next year.
Review of Non-Priority       03/13/97     None            None
Correspondence                                                        The Office of Programs is
Handling (97-09)                                                      continuing to evaluate options for
                                                                      correspondence tracking,
                                                                      including the agency’s imaging
                                                                      system and PC-based
                                                                      applications.

Review of EDM                05/08/97     None            None
Suspended                                                             The agency recently completed
Transactions (97-15)                                                  corrective action for the remaining
                                                                      recommendation.
Review of Duplicate          07/31/97     None            None
Postings of Railroad                                                  Needed programming changes to
Compensation (97-19)                                                  suppress duplicate earnings
                                                                      referrals are scheduled for
                                                                      completion in Fiscal Year 2002.


                                                 -34-
                   Railroad Retirement Board-Office of Inspector General
                            Semiannual Report to the Congress
                              October 1, 2000 - March 31, 2001




         MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS
         OVER TWELVE MONTHS OLD WITH FINAL ACTION PENDING
                       AS OF MARCH 31, 2001
                                                           Funds to be
                                       Disallowed             put to       Reason action has not
Report                        Date       Costs              better use      been completed

Review of Overpayments - 08/25/97        None                None        While programming changes
SSA Transfer Cases                                                       were made to automate non-
(97-22)                                                                  death termination cases,
                                                                         preliminary tests revealed the
                                                                         need for some modifications.

Vested Dual Benefits        06/16/98     None                None        The agency will review the
Appropriations (98-15)                                                   feasibility of benefit component
                                                                         accounting in the context of
                                                                         updating the Strategic IRM Plan
                                                                         and reviewing the information
                                                                         technology architecture.

Review of the Accuracy of   09/30/98     None                None        Necessary programming
Vested Dual Benefits                                                     changes have been requested
(98-23)                                                                  during Fiscal Year 2001 to ensure
                                                                         processing systems exclude
                                                                         erroneous data.
Review of Procedures for 10/19/98        None                None
Correcting Errors in                                                     The agency recently completed
Service and                                                              corrective action for the two
Compensation Reporting                                                   remaining recommendations.
Identified by the EDM
System (99-04)

Review of Computer          02/12/99     None                None
Problem and Change                                                       The agency is reviewing
Management Process                                                       responses to its initial survey of
(99-05)                                                                  help desk customers in order to
                                                                         measure satisfaction with service
                                                                         provided. In addition, a help desk
                                                                         assessment is currently
                                                                         underway to access service
                                                                         improvement requirements.


                                                    -35-
                   Railroad Retirement Board-Office of Inspector General
                            Semiannual Report to the Congress
                              October 1, 2000 - March 31, 2001




         MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS
         OVER TWELVE MONTHS OLD WITH FINAL ACTION PENDING
                     AS OF MARCH 31, 2001
                                                    Funds to be
                                     Disallowed        put to      Reason action has not
Report                    Date         Costs         better use     been completed

Management Information 03/24/99        None           None        The Office of Programs will
Report - Payment and                                              address the two remaining
Case Accuracy Issues                                              recommendations as it develops
Related to the Financial                                          a long-range quality assurance
Statement Audit (99-07)                                           plan over the next year.

Management Information 07/14/99        None           None        The remaining recommendation
Report - Administrative                                           will be addressed by a revised
Finality (99-11)                                                  administrative finality policy under
                                                                  development.

Review of Railroad       09/21/99      None           None        The agency is making necessary
Unemployment                                                      computer programming changes
Insurance Act                                                     to automate the reconciliation
Contributions (99-14)                                             process for compensation
                                                                  reports and payments under the
                                                                  unemployment insurance
                                                                  program.

                         09/28/99      None        $ 48,000,000   The agency has prepared a cost
Financial Interchange:                                            estimate for system changes to
Status of Prior                                                   provide detailed information on
Recommendations for                                               overpayments and will review a
Change (99-16)                                                    sample of cases before deciding
                                                                  on an approach.

                         09/30/99      None        $ 10,606,200   The agency is developing more
Review of Supplemental                                            complete information on private
Annuities (99-17)                                                 pensions and completing work
                                                                  on identified cases that required
                                                                  adjustment.




                                            -36-
                      Railroad Retirement Board-Office of Inspector General
                               Semiannual Report to the Congress
                                 October 1, 2000 - March 31, 2001




         MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS
         OVER TWELVE MONTHS OLD WITH FINAL ACTION PENDING
                     AS OF MARCH 31, 2001
                                                       Funds to be
                                       Disallowed        put to          Reason action has not
Report                        Date       Costs         better use         been completed

Review of Internal         10/05/99      None            None        The agency is making necessary
Controls Over Fixed                                                  changes to improve internal
Assets (00-01)                                                       policies and upgrade its fixed
                                                                     asset tracking system.




                                                -37-
                   Railroad Retirement Board-Office of Inspector General
                            Semiannual Report to the Congress
                              October 1, 2000 - March 31, 2001




APPENDIX E - REPORTING REQUIREMENTS
Inspector General Requirements                                                               Page

Section 4(a)(2) - Review of Legislation and Regulations                                         27
Section 5(a)(1) - Significant Problems, Abuses, and Deficiencies                                 4
Section 5(a)(2) - Recommendations With Respect to Significant Problems,
  Abuses, and Deficiencies                                                                       4
Section 5(a)(3) - Prior Significant Recommendations Not Yet Implemented                      None
Section 5(a)(4) - Matters Referred to Prosecutive Authorities                                   15
Section 5(a)(5) - Instances Where Information Was Refused                                    None
Section 5(a)(6) - List of Audit Reports                                                         28
Section 5(a)(7) - Summary of Each Significant Report                                             4
Section 5(a)(8) - Statistical Tables on Management Decisions on Questioned Costs                29
Section 5(a)(9) - Statistical Tables on Management Decisions on
  Recommendations That Funds Be Put to Better Use                                               30
Section 5(a)(10) - Summary of Each Audit Report Over 6 Months Old
  For Which No Management Decision Has Been Made                                             None
Section 5(a)(11) - Description and Explanation for Any Significant
  Revised Management Decision                                                                None
Section 5(a)(12) - Information on Any Significant Management Decisions
  With Which the Inspector General Disagrees                                                 None


Management Requirements


Section 5(b)(1) - Comments Deemed Appropriate                                    Transmittal Letter
Section 5(b)(2) - Statistical Table on Final Action on Disallowed Costs                         32
Section 5(b)(3) - Statistical Table on Final Action To Put Funds to Better Use                  33
Section 5(b)(4) - Statement on Audit Reports With Final Action Pending                          34



                                                -38-
              REPORT


FRAUD, WASTE AND ABUSE




 Call the OIG Hotline:
            1-800-772-4258

 E-mail:    Hotline@oig.rrb.gov

 The OIG cannot ensure confidentiality to
 persons who provide information via e-mail.
 Do not send information by e-mail that you
 do not want a third party to read.

 Write: RRB-OIG Hotline Officer
        844 North Rush Street
        Chicago, IL 60611-2092
